                Department of Veterans Affairs
                Office of Inspector General



                  Office of Healthcare Inspections

Report No. 13-01988-253


                Healthcare Inspection

        Review of a Patient with 

          Medication-Induced 

          Acute Renal Failure 

     Amarillo VA Health Care System 

             Amarillo, Texas 





July 29, 2013

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
            Review of a Patient with Medication-Induced ARF, Amarillo VA Health Care System, Amarillo, TX



                                        Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection in response to Congressman Randy Neugebauer’s request to review an
allegation that a patient at the Amarillo VA Health Care System, Amarillo, TX, received
negligent care resulting in permanent kidney damage, which led to multiple other
medical problems. It was alleged that:

       	 A patient with a history of renal cell carcinoma1 who had his right kidney removed
          was prescribed medication that led to a 4-day hospital admission for acute renal
          failure (ARF).2
       	 The patient now has permanent damage to his remaining kidney as a result.
       	 Other medical problems have resulted from this kidney damage.

We substantiated that a newly prescribed blood pressure and cardiac medication,
lisinopril, contributed to or caused the patient to develop ARF. However, in view of the
totality of the patient's medical condition, we concluded that the lisinopril prescription
was justifiable.

We did not substantiate that the patient has permanent damage as a result of the ARF
or that the patient’s current medical problems are a result of the ARF. The patient’s
kidney returned to its baseline function approximately 2 months after the episode.

Additionally, we found that the patient did have other medical issues that do not appear
to be sufficiently addressed by providers; however, they were not caused by the
episode of ARF.

We recommended that the System Director consult with Regional Counsel to determine
if disclosure of the events related to the patient’s episode of ARF, as discussed in this
report, is indicated and that the Chief of Staff conduct a thorough review of the care
provided to this patient by the system.

The Veterans Integrated Service Network and System Directors concurred with our
recommendations and provided acceptable improvement plans. (See Appendixes A
and B, pages 8–10, for the Directors’ comments.) We will follow up on the planned
actions for Recommendation 2 until they are completed, and we consider
Recommendation 1 closed.




                                                                          JOHN D. DAIGH, JR., M.D.
                                                                         Assistant Inspector General for
                                                                           Healthcare Inspections
1
    Renal cell carcinoma is a cancer of the kidney. 

2
    ARF is the rapid loss of the kidney’s ability to remove waste and help balance fluids in the body. 



VA Office of Inspector General                                                                             i
            Review of a Patient with Medication-Induced ARF, Amarillo VA Health Care System, Amarillo, TX



                                                     Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted a
review in response to an allegation that a patient of the Amarillo VA Health Care
System, Amarillo, TX (system) received negligent care resulting in permanent kidney
damage, which in turn, led to multiple other medical problems. The purpose of the
review was to determine whether the allegation had merit.

                                                 Background 

The Thomas E. Creek VA Medical Center (facility) is located in Amarillo, TX, and is part
of the system and Veterans Integrated Service Network 18. The facility provides
primary, specialty, and extended care to veterans throughout the Texas and Oklahoma
panhandles, eastern New Mexico, and southern Kansas.                     Approximately
25,000 patients are treated annually. Inpatient care is provided with 44 general
medical, surgical, and intensive care beds. Geriatric and extended care is provided in a
120-bed skilled nursing home care unit. The system also provides health care to
veterans residing in rural areas through three community-based outpatient clinics
(CBOCs) located in Lubbock, TX; Childress, TX; and Clovis, NM.

Allegations
In March 2013, Congressman Randy Neugebauer requested the OIG review an
allegation that facility physicians and medical staff were negligent in their care of a
patient. Specifically, the allegations were that:
       	 A patient with a history of renal cell carcinoma3 who had his right kidney removed
          was prescribed medication that led to a 4-day hospital admission for acute renal
          failure (ARF).4
       	 As a result, the patient now has permanent damage to his remaining kidney.
       	 Other medical problems have resulted from this kidney damage.

                                    Scope and Methodology 

In order to address the allegation, we interviewed the patient, and his relevant
caregivers at a system CBOC and the facility. We also reviewed the patient’s electronic
health record (EHR).

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.



3
    Renal cell carcinoma is a cancer of the kidney. 

4
    ARF is the rapid loss of the kidney’s ability to remove waste and help balance fluids in the body. 



VA Office of Inspector General                                                                             1
         Review of a Patient with Medication-Induced ARF, Amarillo VA Health Care System, Amarillo, TX



                                          Case Summary 

The patient is a man in his sixties with a history of multiple medical problems including
coronary artery disease (CAD);5 high blood pressure; high cholesterol; renal cell
carcinoma, treated with removal of his right kidney in 2008; chronic renal insufficiency;
an enlarged prostate gland with obstructive symptoms;6 multiple head injuries; chronic
headaches; and major depressive disorder.

Since 2007, the patient has received his primary care at the CBOC. A non-VA
cardiologist, nephrologist, and urologist were also caring for him. In 2012, the patient
transferred his specialty care to the facility. He was referred to and is currently followed
by the facility’s Urology Service for his renal cell carcinoma. He was also referred to the
facility’s cardiologist in January 2012.

In May 2012, the patient was seen again by the facility’s Cardiology Service. At that
time, he was taking hydrocodone, simvastatin (statin), terazosin, aspirin,
atenolol (beta-blocker), and fish oil. The cardiology provider noted that the patient’s
blood pressure was slightly elevated at 118/83 mm Hg.7 No second or “repeat”
blood pressure measurement was documented in the EHR.

The provider wrote:
         His blood pressure is slightly elevated today. I will consult with Dr. [a
         cardiologist] to see if there are any contraindications to ACE [angiotensin­
         converting enzyme] inhibitor given that he has had a kidney removed. I
         have found none… The patient is currently not on an ACE inhibitor. I
         have researched this and we will start the patient on 2.5 mg [milligram]
         oral daily. Patient instructed to call if blood pressure is over or under
         target range….

The provider then added a low dose of lisinopril8 to the patient’s medication regimen.
When asked about the lisinopril prescription, the provider told us to the effect,
“he [the patient] had known CAD and guideline recommendations include ACE, statins,
and beta-blockers; I reviewed his medications and he wasn’t on one of those so I added
it. Just core measures, I commented that it was a low dose and that there were no real


5
  CAD is the most common type of heart disease and is caused by hardening and narrowing of arteries that supply
blood to the heart.
6
  Obstructive symptoms include a hesitation before urine flow starts, straining when urinating, weak or intermittent
urinary stream, a sense that the bladder has not emptied completely, or dribbling at the end of urination or leakage
afterward.
7
  Blood pressure is typically recorded as the systolic pressure (pressure in the arteries when the heart beats) (the
“upper number”) over the diastolic pressure (the pressure in the arteries between heartbeats) (the “lower number”) in
millimeters of mercury (mmHg).
8
  Lisinopril is an angiotensin-converting enzyme (ACE) inhibitor class drug utilized in the treatment of
hypertension, congestive heart failure, and myocardial infarction. It is also employed as first-line therapy for
diabetic nephropathy (kidney disease) in patients with Type 2 diabetes mellitus and hypertension,
http://www.drugs.com/monograph/lisinopril.html, accessed June 19, 2013.


VA Office of Inspector General                                                                                     2
         Review of a Patient with Medication-Induced ARF, Amarillo VA Health Care System, Amarillo, TX


contraindications for putting him on it, even though he had the nephrectomy [removal of
a kidney].”

At the end of May 2012, the patient presented to a community hospital
emergency department complaining of dizziness and nausea of 1 day’s duration.
The patient stated he was drinking a lot of water but unable to urinate. At that time, he
was taking three prescribed medications each of which could have a blood pressure
lowering effect, even though all three were not necessarily prescribed for elevated blood
pressure. For example, the patient’s terazosin was prescribed for his prostate
symptoms. His blood pressure was documented as 76/46 mmHg. He was diagnosed
with ARF, admitted to the community hospital, and seen by a nephrologist. All of the
patient’s blood pressure medications were discontinued and intravenous fluids were
started.

The patient had been seen at this hospital in the past, and laboratory results from
1 year prior showed the patient had moderate chronic kidney disease (CKD).9
Based on current laboratory results and the patient’s medical history, the nephrologist’s
assessment at the time of admission was that the patient had ARF related to low blood
pressure superimposed on already existing CKD. The patient was discharged 4 days
later with a diagnosis of ARF and low blood pressure caused by medications.
The patient’s blood pressure and kidney function were improving at discharge.
The patient was discharged on half the dosage of one blood pressure medication.
The lisinopril was discontinued.

At the end of June 2012, the patient presented to the CBOC complaining of intermittent
dizziness, “passing out,” balance problems, and falling asleep in mid-conversation
during the past month. He was diagnosed with orthostatic hypotension10 and his blood
pressure medication was decreased.

At his next appointment in August 2012, he continued to complain of dizziness and
feeling sleepy. His symptoms were documented as inconsistent with his previous
diagnosis of orthostatic hypotension. His laboratory results showed that his kidney
function had returned to the same level of functioning prior to the episode of ARF.
There were no treatment changes at this appointment.

In early September 2012, the patient began having chest pain, described as a tightening
in his mid-chest with no radiation of pain. Additionally, the patient had struck his head
on his van, fell to the ground, and lost consciousness. The next morning when he
awoke, he was still having chest pain, was sleepy, and having problems staying awake.
He was transported by ambulance to the community hospital.

Upon examination in the emergency department, the patient’s vital signs were found to
be stable. He was drowsy but had no documented abnormal neurological findings and

9
  CKD is a condition characterized by a gradual loss of kidney function over time. The two main causes of CKD are 

diabetes and high blood pressure, which are responsible for up to two-thirds of cases.

10
   Orthostatic hypotension is a form of low blood pressure that happens when one stands up from sitting or lying 

down. Orthostatic hypotension can make one feel dizzy or lightheaded, and possibly faint.



VA Office of Inspector General                                                                                  3
         Review of a Patient with Medication-Induced ARF, Amarillo VA Health Care System, Amarillo, TX


his laboratory tests were at his baseline levels. His chest pain was evaluated and a
myocardial infarction was ruled out. The patient received a computed tomography (CT)
scan of his head, which was normal. He was evaluated by physical therapy for safety
because of his complaints of weakness and dizziness. He was provided with a walker
and therapy recommended constant supervision out of concern for him falling.
There was no cause identified for his dizziness. He was discharged home 4 days after
admission.

Three days after discharge, the patient presented to the CBOC complaining that he was
confused and was having difficulty making decisions. A primary care physician
evaluated him and documented that the patient stated, “…during the last
4 years he felt like he lost interest in things, he feels fatigued and weak, has no energy,
and that he feels depressed.” The patient stated that he felt his symptoms were
worsening. Prior depression screenings were negative. He denied suicidal ideation.
The patient was referred to the CBOC Mental Health Clinic (MHC) for evaluation.

The patient missed his first MHC appointment. He was seen in early November 2012,
by a MHC social worker and a psychiatrist. The patient told the social worker that his
symptoms were worsening. He also stated that his girlfriend told him he falls asleep in
the middle of conversations, but he has no recollection of this happening. He declined
therapy as he would be unable to attend due to working nights. In addition to the
patient’s depressive symptoms, the psychiatrist noted a history of snoring and the need
for an evaluation for sleep apnea and headaches that started after a head injury in 1985
that was accompanied by loss of consciousness. The patient asked for a neurological
evaluation. The patient was advised to not drink alcohol, and he was prescribed an
antidepressant. He was scheduled to return to MHC in 2 months.

In early January 2013, the patient returned to the CBOC MHC complaining of
headaches, irritability, depression, anxiety, and anger.           He never started the
antidepressant he was prescribed at the previous appointment. He was transferred to
the facility for severe depression and voluntarily admitted for treatment of his symptoms
at a community hospital. A urine drug screen at the facility prior to admission was
positive for amphetamines.11

During the hospitalization, he was started on an antidepressant, a benzodiazepine,12
and a sleeping pill. He was discharged after 5 days at his request. He was seen by a
social worker at the CBOC MHC the next week. The note documents that the patient
reported he could not remember the reason for his hospitalization, he was heavily
medicated during the hospitalization, and he was not provided with a prescription for
medications on discharge. The social worker discussed why he had been admitted. No
other concerns were addressed. The patient had a follow-up appointment previously
scheduled with his psychiatrist the next week; however, he canceled that appointment.



11
   An amphetamine is a central nervous system stimulant used in the treatment of certain conditions, such as 

attention deficit hyperactivity disorder and narcolepsy, and has the potential for abuse.

12
   A benzodiazepine is a type of drug used to decrease emotional stress, lessen anxiety, and bring about sleep.



VA Office of Inspector General                                                                                     4
         Review of a Patient with Medication-Induced ARF, Amarillo VA Health Care System, Amarillo, TX


At the end of January 2013, the patient was seen by his primary care provider.
Consults for cardiology and a sleep study were submitted to evaluate the patient’s
“feeling like he is passing out briefly or falling asleep” and fatigue. The patient was
instructed not to drive until these evaluations were completed. The cardiology
appointment was scheduled in March and the sleep study in May 2013.

In early March 2013, the patient was seen by cardiology at the facility. He reported
falling asleep when he sits down to talk to someone and gets dizzy when he moves too
fast. He also stated that his pulse gets fast throughout the day. His blood pressure
medicine was decreased, and a test to measure his heart rate and rhythm over a
24-hour period was ordered. The patient cancelled the appointment for the test and did
not reschedule it.

In early April 2013, the patient presented to the CBOC MHC with depression and
suicidal thoughts. He was transferred to the facility for severe depression and
voluntarily admitted for treatment of his symptoms at the same community hospital
where he was previously treated. His routine urine drug screen at the facility prior to
admission was positive for amphetamines. He was discharged after 5 days.

Inspection Results
Issue 1: ARF

We substantiated that the addition of the new antihypertensive medication, lisinopril, led
to the patient’s ARF. The nephrologist who evaluated the patient during the episode of
ARF documented that the ARF occurred because of low blood pressure related to
medication.

The EHR indicates that the primary reasons behind the addition of this medicine was
the patient’s questionably elevated blood pressure. However, in our interview, the
provider stated a somewhat different rationale, indicating that lisinopril was prescribed
because “CAD guideline recommendations include ACE, statins, beta-blockers…”just
core measures.”

Additionally, we found that the patient’s blood pressure was well controlled prior to the
cardiology appointment. During this appointment, documentation states that an
additional blood pressure medication was added for better blood pressure control.
Clinical practice guidelines13 for patients with CAD state that blood pressure less than
130/80 mmHg should be maintained. During this appointment the patient’s blood
pressure was 118/83 mmHg. However, over the prior 3 years, the patient’s blood
pressure readings were less than 120/80 mmHg and his medications had not changed
during that period of time.




13
  Hypertension: Clinical Practice Updates website, http://www.accp.com/docs/bookstore/psap/p7b01sample01.pdf,
accessed April 30, 2013.


VA Office of Inspector General                                                                              5
         Review of a Patient with Medication-Induced ARF, Amarillo VA Health Care System, Amarillo, TX


After discontinuing lisinopril, the patient’s kidney returned to its baseline function.
The only time the patient developed ARF was after the initiation of a very low dose of
lisinopril.

Issue 2: Permanent Kidney Damage

We did not substantiate that the medication or episode of ARF caused irreversible
damage to the patient’s remaining kidney. Based on laboratory results, the patient’s
kidney function indicated moderate kidney damage prior to the episode of ARF.
Three months after the ARF episode and through April 2013, the patient’s
laboratory levels still showed moderate kidney damage.

Issue 3: Current Medical Problems Due to ARF

We did not substantiate that the patient’s current medical problems resulted from the
medication or the episode of ARF. The patient’s kidney is functioning as it was prior to
the brief trial of lisinopril.

Issue 4: Medical Conditions Not Addressed

During our review of the patient’s EHR we did find that some of his medical issues were
not being addressed. The patient had a history of CKD prior to the episode of ARF;
however, this was never discussed with the patient. The patient tested positive for
amphetamines on two separate occasions, and no one has addressed this with the
patient. A review of the patient’s vital signs over the past 1.5 years showed that the
patient’s oxygen saturation14 is consistently low, and the patient’s pulmonary status has
never been evaluated. The patient also has a history of multiple head injuries and has
not been evaluated for traumatic brain injury.

                                           Conclusions

We believe that prescribing low dose lisinopril for the patient was not unreasonable in
view of his CAD and CKD. We concluded that these were the most compelling reasons
for the prescription of lisinopril, as opposed to hypertension. Thus, at least insofar as
the EHR documents, lisinopril may have been the “right drug for the wrong reason.”

We also concluded that in a patient with only one kidney and CKD, a newly prescribed
ACE inhibitor should have caused his providers to promptly recheck and closely follow
his renal function. For example, baseline and follow-up renal function tests in
1–3 weeks were indicated.

We noted that the provider that prescribed lisinopril expressed the intent in the EHR to
consult with a cardiologist. However, it is unclear from the EHR if this occurred, as
there was no documentation of input from the cardiologist.

14
  Oxygen saturation is a measure of how much oxygen the blood is carrying as a percentage of the maximum it
could carry.


VA Office of Inspector General                                                                                6
        Review of a Patient with Medication-Induced ARF, Amarillo VA Health Care System, Amarillo, TX


The patient’s EHR does not list CKD as one of his medical conditions. During our
interview with the patient, he stated that he was never told that his remaining kidney had
damage prior to the episode of ARF and that he was first told about his remaining
kidney having damage by a private nephrologist after his episode of ARF. This appears
to be what led him to believe that the ARF resulted in his CKD. However, evidence of
chronic renal insufficiency is documented in the patient’s EHR well before the events
discussed in this report.

Further, the patient interview and EHR review indicate that he is having significant
medical issues. From our review, we did not find sufficient evidence of all issues being
addressed or managed.

                                 Recommendations

1. We recommended that the System Director consult with Regional Counsel to
determine if a disclosure of the events related to the patient’s episode of acute renal
failure, as discussed in this report, is indicated.

2. We recommended that the System Director ensure that the Chief of Staff conduct a
thorough review of the care provided to this patient by the system.




VA Office of Inspector General                                                                     7
        Review of a Patient with Medication-Induced ARF, Amarillo VA Health Care System, Amarillo, TX
                                                                                        Appendix A
          Veterans Integrated Service Network Director
                           Comments


               Department of
               Veterans Affairs                                     Memorandum


   Date:	      July 9, 2013

   From:	      Director, VA Southwest Health Care Network (10N18)

   Subject: Healthcare Inspection – Review of a Patient with
            Medication-Induced Acute Renal Failure, Amarillo VA Health
            Care System, Amarillo, TX

   To:	        Director, Dallas Office of Healthcare Inspections (54DA)

   Thru:	      Director, VHA Management Review Service (VHA 10AR
               MRS OIG Hotlines)

               I concur with the recommendations for improvement contained in 

               the Healthcare Inspection Review at the Amarillo VA

               Health Care System. If you have any questions or concerns, 

               please contact Sally Compton, Executive Assistant to the 

               Network Director, VISN 18, at (602) 222-2699. 





               Susan P. Bowers 

               Network Director, VA Southwest Health Care Network (10N18)





VA Office of Inspector General                                                                     8
         Review of a Patient with Medication-Induced ARF, Amarillo VA Health Care System, Amarillo, TX
                                                                                         Appendix B
                         System Director Comments


                Department of
                Veterans Affairs                                     Memorandum


   Date:        July 3, 2013

   From:        Director, Amarillo VA Health Care System (504/00)

   Subject: Healthcare Inspection – Review of a Patient with
            Medication-Induced Acute Renal Failure, Amarillo VA Health
            Care System, Amarillo, TX

   To:          Director, VA Southwest Health Care Network (10N18)

                Thank you for the opportunity to review the draft report of the 

                recommendations from the OIG Healthcare Inspection – Review of 

                Patient with Medication-Induced Acute Renal Failure conducted at

                the Amarillo VA Health Care System. We have reviewed the report 

                from the review and concur with the recommendations; corrective 

                action plans with target dates for completion are attached. 





                ANDREW M. WELCH, MHA, FACHE 

                Director, Amarillo VA Health Care System (504/00) 





VA Office of Inspector General                                                                      9
        Review of a Patient with Medication-Induced ARF, Amarillo VA Health Care System, Amarillo, TX



                         Comments to OIG’s Report
The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the System Director consult with Regional
Counsel to determine if a disclosure of the events related to the patient’s episode of
acute renal failure, as discussed in this report, is indicated.

Concur

Target date for completion: June 17, 2013

System response: The Nephrologist completed a clinical disclosure with this patient in
June 2013, at which time he had a discussion with the patient regarding the use of ACE
inhibitors, reassuring no permanent damage was incurred due to the previous
administration of an ACE inhibitor.     The patient has an appointment with his
primary care physician in September 2013.

Recommendation 2. We recommended that the System Director ensure that the
Chief of Staff conduct a thorough review of the care provided to this patient by the
system.

Concur

Target date for completion: May 13, 2013

System response: The Acting Chief of Staff conducted a thorough review of the care
provided to the patient. Risk Manager, Nephrology and Mental Health Peer Reviews
were completed in May 2013, after a conference call was held with the OIG.

The patient has continued to be seen by a Mental Health Provider with repeat
drug testing positive for amphetamines. The patient denies any illicit drug use and
continued to decline referral into a substance abuse program. The patient was seen by
a Nephrologist in June 2013; evaluated with a Sleep Study in May 2013; and has a
home oxygen study scheduled for September 2013. The patient cancelled the
neurology appointment that was scheduled for June 2013, for evaluation of
traumatic brain injury.     The neurology appointment has been rescheduled for
July 2013.

The patient has future appointments with Mental Health, Urology and the Primary Care
Provider in September 2013. The Health Care System will continue to follow-up with
the patient to ensure that appropriate care is provided.




VA Office of Inspector General                                                                    10
        Review of a Patient with Medication-Induced ARF, Amarillo VA Health Care System, Amarillo, TX
                                                                                        Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Gayle Karamanos, MS, PA-C, Team Leader
                         Cathleen King, MHA, CRRN
                         George Wesley, MD
                         Misti Kincaid, BS, Management and Program Analyst




VA Office of Inspector General                                                                    11
        Review of a Patient with Medication-Induced ARF, Amarillo VA Health Care System, Amarillo, TX
                                                                                        Appendix D



                                  Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Southwest Health Care Network (10N18)
Director, Amarillo VA Health Care System (504/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
Senate Committee on Homeland Security and Governmental Affairs
Related Agencies
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: John Cornyn, Ted Cruz, Martin Heinrich, Tom Udall
U.S. House of Representatives: Ben R. Luján, Randy Neugebauer, Mac Thornberry



This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                    12
